                                           AAAAAAAAAAAAAAAAA




              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Protective Force Property Management
at Lawrence Livermore National
Laboratory




DOE/IG-0742                               October 2006
PROTECTIVE FORCE PROPERTY MANAGEMENT AT
LAWRENCE LIVERMORE NATIONAL LABORATORY

TABLE OF
CONTENTS
             OVERVIEW

             Introduction and Objective       1

             Observations and Conclusions     2


             DETAILS OF FINDINGS

             Mission Equipment Management     3

             Mission Equipment Availability   6

             Security Police Officer Badges   7

             Written Guidance                 7


             RECOMMENDATIONS                  8


             MANAGEMENT COMMENTS              9


             INSPECTOR COMMENTS               9


             APPENDICES

             A. Scope and Methodology         10

             B. Management Comments           11
Overview

INTRODUCTION    The Department of Energy’s (DOE’s) Lawrence Livermore
AND OBJECTIVE   National Laboratory (LLNL) supports the maintenance of a safe,
                secure, and reliable nuclear weapon stockpile and provides
                expertise toward the prevention of the proliferation of weapons of
                mass destruction and terrorist attacks. LLNL is a National Nuclear
                Security Administration (NNSA) site operated by the University of
                California.

                In support of its core mission, Livermore maintains a protective
                force that is trained and equipped to secure its facilities and
                operations. For the past five years, the Laboratory’s protective
                force has maintained a supply room that provides equipment
                required for Security Police Officers (SPOs) to carry out their
                duties. We were told by a knowledgeable Livermore employee
                that about $380,000 in Government funds was expended annually
                on Government property that is issued by the supply room to the
                Laboratory’s SPOs.

                In February 2006, the Office of Inspector General received an
                allegation that the LLNL protective force supply room was being
                mismanaged. Specifically, it was alleged that: (1) there was no
                organized method of accountability and distribution of equipment;
                (2) equipment was scattered throughout the supply room with no
                apparent system of organization; (3) orders for equipment were
                written down on scratch paper, with no formal ordering or order
                tracking system; (4) there were instances where equipment ordered
                for specific individuals was not received or was received but given
                to other officers; and, (5) when equipment was issued, it was not
                documented. In addition, concern was expressed that, because of
                the poor property controls, there was a strong possibility for
                equipment to be diverted and resold outside the Laboratory.

                The objective of this inspection was to review the adequacy of
                internal controls associated with LLNL’s protective force supply
                room. To provide context for this review, we also conducted
                limited reviews of the protective force supply rooms at two other
                NNSA facilities, Los Alamos National Laboratory (Los Alamos)
                and Sandia National Laboratory-New Mexico (Sandia).




Page 1                                           Protective Force Property
                                                 Management at Lawrence
                                                 Livermore National Laboratory
OBSERVATIONS AND   We substantiated the majority of the allegations and concluded that
CONCLUSIONS        conditions in the LLNL protective force supply room created an
                   environment where the equipment was vulnerable to loss or theft.
                   Specifically, we found that the operation of Livermore’s protective
                   force supply room did not include:

                   •   Adequate organization, accountability and requisition
                       processing for mission-related equipment.

                   •   A shelf stock of mission-related equipment for issuance to the
                       protective force. Equipment was usually purchased by
                       individual requisition on an as-needed basis. It could take
                       extended periods of time to receive the equipment; in the
                       interim, the supply room would be searched for a spare or the
                       item would be borrowed from an off-duty officer.

                   •   Appropriate measures to properly secure unused SPO metal
                       badges (shields), as required by DOE policy.

                   In addition, we observed that LLNL’s protective force did not have
                   written guidance on maintaining and operating the supply room.

                   By contrast, based on our limited reviews at Los Alamos and
                   Sandia, we found that the protective force supply rooms at those
                   sites had adequate internal controls to ensure the accountability
                   and availability of the equipment necessary for their protective
                   force mission. We noted that both these sites had written guidance
                   on maintaining and operating their supply rooms.

                   The mission readiness of a protective force is, in part, dependent
                   upon the type, condition, and availability of the equipment
                   necessary for the SPOs to perform their functions. Thus, in our
                   view, having a well managed supply room can support the
                   effective accomplishment of that mission.




Page 2                                               Observations and Conclusions
Details of Findings

MISSION EQUIPMENT     We found that the operation of LLNL’s protective force supply
MANAGEMENT            room did not include adequate organization, accountability, and
                      requisition processing for mission-related equipment. About
                      $380,000 in Government funds was expended annually for
                      Government property issued by the supply room to LLNL’s SPOs.
                      The supply room operations include receiving, storing, controlling,
                      and issuing mission-related equipment such as ammunition
                      pouches, handcuffs, flashlights, gloves, goggles, tactical vests,
                      uniforms, and boots.

Organization          We conducted an unannounced visit to the LLNL protective force
                      supply room and found the supply room to be in the disorganized
                      condition shown in Picture 1. We learned that the LLNL supply
                      room contained many items of equipment that were: (1) pending
                      issuance to officers; (2) returned from departing SPOs;
                      (3) damaged and needing repair or pending replacement; or
                      (4) obsolete.




                                           Picture 1 (Livermore)


                      We observed that there were many items of equipment scattered
                      around the supply room (see Picture 2). This included items that
                      are normally issued via other entities, not the supply room, such as
                      a gas mask, a rifle barrel, and night vision goggles and a scope.
                      We inquired about the source and status of these items. We were
                      told that some items had been left by unknown persons, that others




Page 3                                                               Details of Findings
                 probably required repair, and that it was unknown what the
                 disposition of the items would be.




                                         Picture 2 (Livermore)

                 The supply room was primarily staffed by one protective force
                 employee. We were told that the employee had received very little
                 instruction and no training in maintaining and operating the supply
                 room. When we sought to establish who else had access to the
                 supply room, we were told that there was not a written record of
                 this information, but that approximately 14 members of the LLNL
                 protective force had access to the supply room because they had
                 keys to it. We were also told that this situation made it difficult to
                 ascertain who removed property or left items to be stored or
                 repaired. We noted that a sign posted on the supply room front
                 desk requested individuals to use a sign-out sheet for any items
                 taken from the room (in the absence of the regularly assigned
                 supply room employee), but there was no way to readily ascertain
                 whether individuals accessing the supply room were utilizing the
                 sign-out sheet.

Equipment        DOE Order 580.1, “Department of Energy Personal Property
Accountability   Management Program,” requires that personal property control
                 records be established when there are personal property items under
                 stock control for more than 90 days. DOE defines “personal
                 property” as property of any kind except for real estate, permanent
                 fixtures, nuclear materials, and petroleum products. DOE stock
                 control policy requires that records be: (1) maintained to account for
                 inventories on hand, on order, received, issued, and disposed of; and,
                 (2) supported by proper documents evidencing these transactions,
                 with stock record accounts available for review and inspection.




Page 4                                                           Details of Findings
                 Our inspection disclosed that the supply room did not have a
                 system of itemized stock control records that could account for
                 inventory on hand, received, issued to SPOs subsequent to their
                 initial equipment issue, disposed of, or turned in for repair or
                 replacement. The only records maintained related to items of
                 equipment initially issued to SPOs. These records were kept on a
                 locally developed spreadsheet maintained by the supply room
                 employee, with no supporting documentation, such as receipts
                 signed by SPOs. An LLNL protective force official acknowledged
                 that the supply room accountability process was informal and
                 without a lot of records. He also said that if there were a DOE
                 requirement to maintain tighter inventory control over SPO
                 equipment, they would probably do a better job.

Requisitioning   Requisitioning of LLNL protective force equipment was not a
                 function of the supply room employee, and protective force
                 employees could order equipment without the knowledge of the
                 supply room employee. We were told that this resulted in many
                 occasions where items were received at the supply room and the
                 supply room employee did not know who requested them or, in
                 some instances, their purpose. In addition, we were told that there
                 have been instances where verbal requests for equipment have
                 resulted in equipment being ordered for SPOs without a requisition
                 form being completed, so there was no documentation for the
                 supply room employee to consult to try to determine for whom or
                 for what such equipment was intended. The above situations led to
                 some newly purchased equipment remaining unissued for extended
                 periods of time.

Los Alamos and   We determined that, in contrast to the approximately 14 people
Sandia           who had access to LLNL’s protective force supply room, both Los
                 Alamos and Sandia limited access to their supply rooms to a cadre
                 of trained personnel authorized to distribute equipment for the
                 protective force. Further, these two sites had established systems
                 to separate and organize equipment for easy accountability,
                 accessibility, and distribution (see Pictures 3 and 4); required
                 written documentation for all orders to be processed; and
                 maintained an individual file for each SPO, with either the SPO’s
                 initials or signature required for all uniform and equipment
                 transactions. The sites also maintained a computer database to
                 assist in accounting for on-hand and issued equipment. Their
                 procedures appeared to reduce the opportunity for equipment to
                 become lost or stolen.




Page 5                                                         Details of Findings
                                          Picture 3 (Los Alamos)




                                              Picture 4 (Sandia)


MISSION EQUIPMENT   We found that the operation of LLNL’s protective force supply
AVAILABILITY        room did not include a shelf stock of mission-related equipment for
                    issuance to the protective force. Instead, equipment was usually
                    purchased by individual requisition when needed. It could take
                    extended periods of time to receive the equipment; in the interim,
                    the supply room would be searched for a spare or the item would
                    be borrowed from an off-duty officer.



Page 6                                                             Details of Findings
                  The DOE Protective Force Manual (DOE Manual 470.4-3)
                  requires that protective forces be equipped with the necessary
                  resources to effectively, efficiently and safely perform both routine
                  and emergency duties in daylight or under reduced visibility
                  conditions. The Manual lists the specific minimum mission-
                  related equipment that is required for SPOs to have while on duty
                  and states that equipment must be available in sufficient quantities
                  and properly maintained to support the protective force mission.
                  At the LLNL protective force supply room, we found that a
                  practice of stocking a minimal level of replacement equipment had
                  not been established. Under these circumstances, there is potential
                  for SPOs to not be properly equipped if there is an instance of
                  malfunctioning, stolen, or lost equipment.

                  In contrast, we determined that Los Alamos and Sandia both
                  maintained a shelf stock of mission-related uniforms and
                  equipment to immediately replace an SPO’s equipment when
                  necessary. These two sites also had a system in place to maintain a
                  specified level of shelf stock.

SECURITY POLICE   We found that the operation of LLNL’s protective force supply
OFFICER BADGES    room did not include appropriate measures to properly secure
                  unused SPO metal badges (shields), as required by DOE policy.
                  The DOE Protective Force Manual states that contractors requiring
                  firearms/arrest authority as a function or duty are issued “Arming
                  and Arrest Credentials with Shield” and may be issued metal
                  police-type shields. The Manual also states that the shields are the
                  property of the Government and unissued shields must be stored in
                  a manner assuring their protection against loss, theft, or
                  unauthorized use.

                  LLNL SPOs have firearms/arrest authority and are issued shields.
                  While inspecting LLNL’s supply room, we observed that, although
                  LLNL’s unissued SPO shields were kept in a locked cabinet, the
                  cabinet key was left unsecured on top of the cabinet. Given the
                  fact that access to the supply room was available to approximately
                  14 people, this created a vulnerability that we concluded to be
                  unacceptable. In fact, we determined that there has been at least
                  one instance where an “unissued” LLNL SPO shield was found in
                  the possession of an unauthorized individual.

WRITTEN           We observed that LLNL’s protective force did not have written
GUIDANCE          guidance on maintaining and operating its supply room, while both
                  Los Alamos and Sandia did have such guidance. Although there
                  was no DOE or NNSA policy specifically requiring a supply room
                  to have written procedures, given the important function that is



Page 7                                                           Details of Findings
                  performed by the supply room and the dollar value of Government
                  property managed, we believe consideration should be given at
                  LLNL to establishing written guidance specific to the protective
                  force supply room operations. In addition, we were told by an
                  official from DOE’s Office of Security and Safety Performance
                  Assurance that the protective force supply room function was not
                  included as part of the office’s regular reviews of security at
                  Department sites. The official acknowledged that, given what we
                  found at LLNL, the status of SPO supply rooms might be a
                  consideration with respect to sites’ operational readiness, which is
                  an element of the office’s reviews.

RECOMMENDATIONS   We recommend that the Manager, Livermore Site Office ensures
                  that the LLNL protective force:

                  1. Establishes a system of stock records for SPO equipment that:
                     (a) accounts for inventories on hand, on order, received, issued,
                     and disposed of; and, (b) is supported by proper documents
                     evidencing these transactions, with stock record accounts
                     available for review and inspection.

                  2. Defines a minimum level of mission-related uniforms and
                     equipment that are required to sustain protective force
                     operations, and ensures that such inventory is on hand for
                     ready issue to SPOs.

                  3. Establishes improved access controls for the supply room to
                     minimize the number of non-supply room personnel obtaining
                     unescorted access.

                  4. Secures SPO badges in accordance with the requirements of
                     the DOE Protective Force Manual.

                  5. Develops and implements written procedures regarding the
                     management of the protective force supply room function.

                  We recommend that the Director, Office of Security and Safety
                  Performance Assurance consider:

                  6. Establishing policy regarding the operational expectations of
                     the protective force supply function and including the
                     protective force supply function in future assessment activities.




Page 8                                                          Recommendations
MANAGEMENT   In comments on a draft of this report, NNSA stated that actions
COMMENTS     either have been taken or would be taken in the near future to meet
             the intent of recommendations 1 through 5. Regarding
             recommendation 6, NNSA agreed with the intent of the
             recommendation, but believed that the issue was a property matter,
             not a security matter, and that there is sufficient published
             guidance related to property management. NNSA stated that it
             would have a Senior Procurement Executive make a determination
             as to the best course of action necessary to ensure that equipment is
             appropriately managed.

             The Office of Security and Safety Performance Assurance (SSA)
             concurred in principle with recommendation 6 and stated that it
             believes that DOE property management directives appear to be
             adequate. SSA also stated that it believes that the Manager of the
             Livermore Site Office should require that protective force
             management develop written supply room procedures and that the
             protective force supply room be inspected during each annual site
             safeguards and security survey. Further, SSA stated that protective
             force supply rooms will be considered in its future inspections
             when the operation of the supply room appears to impact
             protective force capabilities or readiness.

             Management’s comments are included in their entirety in
             Appendix B of this report.

INSPECTOR    We found management’s comments to be generally responsive to
COMMENTS     the report recommendations.




Page 9                               Management and Inspector Comments
Appendix A

SCOPE AND     The fieldwork for this inspection was conducted in March and
METHODOLOGY   April of 2006. As part of this inspection, we visited the LLNL,
              Los Alamos, and Sandia protective force supply rooms and
              interviewed officials and examined documents and records at those
              locations. We also conducted a document review and analysis that
              included:

              •   DOE Order 580.1 “Department of Energy Personal Property
                  Management Program”;

              •   DOE Manual 470.4-3 “Protective Force Manual”; and,

              •   The DOE Property Management Regulations at 41 Code of
                  Federal Regulations, Chapter 109.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 10                                              Scope and Methodology
Appendix B




Page 11      Management Comments
Appendix B         (continued)




Page 12      Management Comments
Appendix B         (continued)




Page 13      Management Comments
Appendix B         (continued)




Page 14      Management Comments
                                                                    IG Report No. DOE/IG-0742

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Ms. Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
